No. 20- 6333

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

IMMANUEL F. SANCHEZ,
Petitioner,
vs.
STATE OF CALIFORNIA, et al.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR REHEARING

Immanuel F. Sanchez
1345 N. Watland Ave.
Los Angeles, CA 90063
Petitioner in pro se

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii, iii

PETITION FOR REHEARING

1

ARGUMENT

1

VIOLATION OF THE FIFTH AMENDMENT DUE PROCESS CLAUSE
OF THE CONSTITUTION OF THE UNITED STATES OF AMERICA 1
VIOLATION OF CANON 1 OF THE CODE OF CONDUCT FOR
UNITED STATES JUDGES

3

VIOLATION OF CANON 2A OF THE CODE OF CONDUCT FOR
UNITED STATES JUDGES

5

VIOLATION OF PETITIONER'S RIGHT TO CERTIORARI REVIEW .... 7
CONCLUSION

9

CERTIFICATE OF GOOD FAITH

10

- -

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Adkins v. E. I. DuPont de Nemours & Co.,
335 U.S. 331 (1948)

7, 8

Boag v. MacDougall
454 U.S. 364 (1982)

7, 8

Coppedge v. United States,
369 U.S. 438 (1962)

7, 8

Dent v. West Virginia,
129 U.S. 114 (1889)

1, 2

Denton v. Hernandez,
504 U.S. 25 (1992)

7, 8

Neitzke v. Williams,
490 U.S. 319 (1989)

7, 8

Pleasant-El v. Oil Recovery Co.,
148 F.3d 1300 (11th Cir. 1998)
State v. District Court of Jefferson County,
213 Iowa 822 (1931)
Wallach v. Lieberman,
366 F.2d 254 (2nd Cir. 1966)
Wolff v. McDonnell,
418 U.S. 539 (1974)

5
7, 8
5
1, 2

STATUTES AND RULES
28 U.S.C. § 1254(1)

8

28 U.S.C. § 2403(a)

5

S. Ct. Rule 44.2

1, 9

TABLE OF AUTHORITIES CITED
(Continued)
CONSTITUTIONAL PROVISIONS
U.S. CONST. amend. I
U.S. CONST. amend. V

PAGE NUMBER
3
1, 2

U.S. CONST. amend. VII

3

U.S. CONST. amend. XIII

3

U.S. CONST. amend. XIV

3

OTHER LEGAL AUTHORITIES
Code of Conduct for U. S. Judges, Canon 1

3, 4

Code of Conduct for U. S. Judges, Canon 2A

5, 6

PETITION FOR REHEARING
Petitioner Immanuel F. Sanchez respectfully asks this Court to grant
rehearing of this Court's January 19, 2021 order, pursuant to Rule 44 of this Court.
ARGUMENT
I.

VIOLATION OF THE FIFTH AMENDMENT DUE PROCESS CLAUSE OF
THE CONSTITUTION OF THE UNITED STATES OF AMERICA
Pursuant to the Fifth Amendment of the Constitution of the United States of

America, "No person shall be ... deprived of life, liberty, or property, without due
process of law." U.S. CONST. amend. V. As a substantive limitation on government
action, the Due Process Clause precludes arbitrary or capricious decision making.
See Wolff v. McDonnell, 418 U.S. 539, 558 (1974) ("The touchstone of due process is
protection of the individual against arbitrary action of government."); See also Dent
v. West Virginia, 129 U.S. 114, 123 (1889) ("the terms 'due process of law' was ...
designed to secure the subject against the arbitrary action of the [government] and
place him under the protection of the law.").
The record shows that the Court acted in an arbitrary and capricious manner
when it made its decision to deny Petitioner's writ of certiorari because it
completely failed to state its reasons in writing. Thus, the Court's decision denying
Petitioner's writ of certiorari constitutes an absolute abuse of discretion in violation
of the Fifth Amendment Due Process Clause.
Indeed, the Court provided a summary or conclusory statement that does not
detail or analyze the reasons for its decision. In fact, the Court's decision does not
set forth any reasons upon which it relied in reaching its conclusion. Petitioner is
-1-

presented with a summary or conclusory statement, that "Nile petition for a writ of
certiorari is denied." The Court did not detail or analyze the reasons upon which
this decision was based. No statement was made by the Court as to the reasons for
its conclusion; the Court did not identify any evidence or facts it relied on in making
its decision to deny Petitioner's writ of certiorari. Evidently, the Court's decision
provides no rational explanation, inexplicably departs from clearly established
precedent, is devoid of any reasoning and contains only a summary or conclusory
statement. Clearly, the decision or action of the Court is arbitrary and capricious in
dereliction of the Fifth Amendment to the Constitution of the United States of
America under Wolff v. McDonnell and Dent v. West Virginia.

2

II.

VIOLATION OF CANON 1 OF THE CODE OF CONDUCT FOR UNITED
STATES JUDGES
Canon 1 declares: "A Judge Should Uphold the Integrity and Independence of

the Judiciary." The accompanying text adds: "An independent and honorable
judiciary is indispensable to justice in our society. A judge should maintain and
enforce high standards of conduct and should personally observe those standards, so
that the integrity and independence of the judiciary may be preserved."
The judges' decision to deny Petitioner's writ of certiorari manifested an
intentional disregard of his fundamental constitutional rights, namely, the First
Amendment right to petition, the Seventh Amendment right to trial by jury, the
Ninth Amendment right to health care, the Thirteenth Amendment right to be free
from slavery or involuntary servitude, and the Fourteenth Amendment right to due
process of law in violation of Canon 1 of the Code of Conduct for United States
Judges.
No more fragile rights exist under the Constitution of the United States of
America than the rights of the Citizen. Consequently these rights are deserving of
the greatest judicial solicitude. The ideal of the American legal system is that the
judicial should be equated with the just. Such an ideal cannot be achieved if people
clothed with judicial power may ignore the Citizen's fundamental constitutional
rights merely because he is indigent. Justice requires that judges be solicitous of
rights of Citizens who come before the court.
Moreover, the judges' bad faith is directed towards the legal system itself,
their arbitrary denial of Petitioner's writ of certiorari because of their personal
-3-

beliefs as to his case and their personal hostility to him for lack of attorney smacks
of an inquisitorial intent to serve imagined truth at the expense of justice contrary
to Canon 1 of the Code of Conduct for United States Judges.

4

III. VIOLATION OF CANON 2A OF THE CODE OF CONDUCT FOR UNITED
STATES JUDGES
The decision of the Court evidences that the judges engaged in a defiance and
willful non-compliance of the law in violation of Canon 2A of the Code of Conduct for
United States Judges. Pursuant to 28 U.S.C. § 2403(a), "in any action, suit or
proceeding in a court of the United States ... wherein the constitutionality of any
Act of Congress affecting the public interest is drawn in question, the court shall
certify such fact to the Attorney General."
The record demonstrates that the judges wrongly ignored their duty to certify
the fact that Petitioner brought into question as required by 28 U.S.C. § 2403(a), the
constitutionality of 28 U.S.C. § 1915. Under § 2403(a), it is required that the Court,
even though it finds that constitutional question is frivolous, give notice to Attorney
General. See Wallach v. Lieberman, 366 F.2d 254, 257-58 (2nd Cir. 1966).
Certification is mandatory. The obligation to certify rests with the Court, not with
the parties. The notice is not discretionary. Certification is thus a duty of the Court
that should not be ignored. Id.
In Pleasant-El v. Oil Recovery Co., 148 F.3d 1300, 1302 (11th Cir. 1998), the
Court specifically held that: "wherein the constitutionality of any Act of Congress
affecting the public interest is drawn in question, the court shall certify such fact to
the Attorney General." The record discloses that the judges ignored, intentionally
disregarded, or refused to follow court procedures under § 2403(a) in violation of
Canon 2A of the Code of Conduct for United States Judges. The judges' conduct
constitutes a breach of the ethical duty to "follow the law" under Canon 2A of the
-5-

Code of Conduct for United States Judges, "A judge should respect and comply with
the law."

-6-

IV.

VIOLATION OF PETITIONER'S RIGHT TO CERTIORARI REVIEW
"An abuse of judicial discretion has always been, and always ought to be, the

subject of review in some form. When on the undisputed facts the court exceeds its
discretion, or takes action contrary to its mandatory duty, the party aggrieved, in
the absence of other adequate remedy, is entitled to annulment on the statutory
writ of certiorari." State v. District Court of Jefferson County, 213 Iowa 822, 831-32
(1931).
It is well established that "the dismissal of Petitioner's in forma pauperis
complaint was an absolute abuse of discretion." Cert. Petition, Ground I. The abuse
of discretion gave Petitioner right to certiorari review. See Denton v. Hernandez,
504 U.S. 25 (1992) ("The Court granted the writ of certiorari and overturned the
appellate court's decision."); Neitzke v. Williams, 490 U.S. 319 (1989) ("On certiorari
to review a case in which a Federal District Court denied a plaintiff leave to proceed
in forma pauperis based on a finding that the complaint was frivolous."); Boag v.
MacDougall, 454 U.S. 364 (1982) ("Granting certiorari, the United States Supreme
Court reversed."); Coppedge v. United States, 369 U.S. 438 (1962) ("On certiorari,
the United States Supreme Court vacated the judgment of the Court of Appeals and
remanded the case to that court."); Adkins v. E. I. DuPont de Nemours & Co., 335
U.S. 331 (1948) ("Plaintiff petitioned this Court for a writ of certiorari and moved
for leave to appeal in forma pauperis. [T]his Court entered an order assigning the
motion for argument ... and stating that it desired 'to hear argument upon the
questions presented by the motion for leave to proceed in forma pauperis.' ").

-7-

The judges acted illegally in denying the application because Petitioner is
entitled under 28 U.S.C. § 1254(1) to a writ of certiorari. Under § 1254(1), "Cases in
the courts of appeals may be reviewed by the Supreme Court by ... writ of certiorari
granted upon the petition of any party to any civil ... case ... after rendition of
judgment." Petitioner has a "right ... to the common law prerogative writ of
certiorari for the removal of all proceedings pending in an inferior court under the
constitutional power and duty in this Court to issue all writs and process necessary
to secure justice to parties, and exercise a supervisory control over all inferior
judicial tribunals throughout the State." Id., at 836.
Accordingly, the judges' decision denying certiorari review of Petitioner's case
violated his right to the common law prerogative writ of certiorari under State v.
District Court of Jefferson County, Denton v. Hernandez, Nei tzke v. Williams, Boag
v. MacDougall, Coppedge v. United States, and Adkins v. E. I. DuPont de Nemours
& Co.

-8-

CONCLUSION
Petitioner respectfully requests that this Court grant the petition for rehearing
and order full briefing and argument on the merits of this case.
Date: February 1, 2021
Respectfully submitted,

By:
IMMANUEL F. SANC EZ
Petitioner in pro se

-9-

